TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Travel Card Controls Are Generally
                     Effective, but More Aggressive Actions
                         to Address Misuse Are Needed



                                           April 18, 2013

                              Reference Number: 2013-10-032




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


TRAVEL CARD CONTROLS ARE                              inappropriate or personal use while employees
GENERALLY EFFECTIVE, BUT MORE                         are on official travel.
AGGRESSIVE ACTIONS TO ADDRESS                         While the vast majority of cardholders used their
MISUSE ARE NEEDED                                     travel cards in an appropriate manner and paid
                                                      their bills on time, the IRS identified more than
                                                      1,000 cardholders who misused their travel
Highlights                                            cards during Fiscal Years 2010 and 2011. The
                                                      disciplinary actions taken by IRS management in
Final Report issued on April 18, 2013                 response to the confirmed misuse were less
                                                      severe than those suggested in the IRS penalty
Highlights of Reference Number: 2013-10-032           guidelines in approximately half of the 30 cases
to the Internal Revenue Service Deputy                TIGTA reviewed. Further, hundreds of
Commissioner for Operations Support.                  cardholders with evidence of significant financial
                                                      problems, including non-sufficient funds checks
IMPACT ON TAXPAYERS                                   or suspended and charged-off accounts, were
In Fiscal Year 2011, the IRS travel card program      not referred for reevaluation of national security
had approximately 52,000 individually billed          clearances and background checks. The
Government-issued travel card accounts and            majority of those cardholders remained
$121 million in related charges. The lack of          employed by the IRS as of September 2012.
aggressive steps to address travel card misuse        Because the IRS’s mission includes requiring
and reevaluate the security clearance and             taxpayers to pay taxes owed on time and
suitability for employment of employees with          voluntarily, the IRS should take further steps to
indications of financial problems present a risk to   address employees who do not voluntarily pay
taxpayers, especially when these IRS                  their travel card bills on time.
employees have access to sensitive taxpayer           WHAT TIGTA RECOMMENDED
information.
                                                      TIGTA recommended that the IRS improve
WHY TIGTA DID THE AUDIT                               controls in several areas, including designing
This audit was initiated to assess the IRS’s          controls to detect personal use of the travel card
controls intended to identify potentially             while employees are on official travel. TIGTA
fraudulent or abusive use of individually billed      also recommended that the IRS develop a
travel cards. With the millions of dollars spent      process for referring cardholders with evidence
annually by cardholders on official travel, it is     of financial problems to personnel security
essential that the IRS has effective controls in      officials for reevaluation of the employees’
place to prevent and detect misuse. In addition,      security clearances and suitability for their
it is also imperative that identified misuse is       positions.
responded to with appropriate disciplinary action     In their response, IRS management agreed with
in order to maintain the integrity of the program.    the recommendations and plans to implement
WHAT TIGTA FOUND                                      several corrective actions to address them,
                                                      including developing and implementing a
The IRS’s travel card program controls are            process to identify personal use of the travel
generally effective and delinquency rates are         card while employees are on official travel and
below 1 percent; however, disciplinary actions        developing a policy for reevaluating security
imposed by IRS management for confirmed               clearances and suitability for employment for
travel card misuse are sometimes overly lenient.      employees with evidence of significant financial
The design and implementation of travel card          problems associated with travel card misuse. In
controls intended to identify transactions            addition, the IRS noted that some of the
occurring outside of official travel are generally    corrective actions have already been
effective. However, current controls do not           implemented.
include any steps designed to detect
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               April 18, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Travel Card Controls Are Generally Effective, but
                             More Aggressive Actions to Address Misuse Are Needed
                             (Audit # 201210006)

 This report presents the results of our review to assess the Internal Revenue Service’s controls to
 identify potentially fraudulent or abusive use of individually billed Government-issued travel
 cards. This review was conducted as part of the Treasury Inspector General for Tax
 Administration’s Fiscal Year1 2012 Annual Audit Plan and addresses the major management
 challenges of Fraudulent Claims and Improper Payments and Security for Taxpayer Data and
 Employees.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Gregory D. Kutz,
 Assistant Inspector General for Audit (Management Services and Exempt Organizations).




 1
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
 Government’s fiscal year begins on October 1 and ends on September 30.
                                Travel Card Controls Are Generally Effective,
                         but More Aggressive Actions to Address Misuse Are Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Controls Are Designed Effectively but Do Not Include
          a Control to Identify Personal Use of Travel Cards
          While Employees Are on Official Travel ..................................................... Page 5
                    Recommendation 1:........................................................ Page 7

          Implementation of Travel Card Controls Detected
          Misuse, but Improvements Can Be Made ..................................................... Page 7
                    Recommendations 2 and 3: .............................................. Page 11

                    Recommendations 4 through 6:......................................... Page 12

          Disciplinary Actions for Travel Card Misuse Were
          Often Lenient and Did Not Result in a Reevaluation
          of Background Clearances ............................................................................ Page 12
                    Recommendations 7 and 8: .............................................. Page 17


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ...................................................... Page 23
          Appendix IV – The Internal Revenue Service and Governmentwide
          Travel Card Delinquency Rates for Fiscal Years 2010 and 2011 ................. Page 24
          Appendix V – Management’s Response to the Draft Report ....................... Page 25
             Travel Card Controls Are Generally Effective,
      but More Aggressive Actions to Address Misuse Are Needed




                    Abbreviations

ATM           Automated Teller Machine
CCS           Credit Card Services
FY            Fiscal Year
IBA           Individually Billed Account
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
NSF           Non-Sufficient Funds
                             Travel Card Controls Are Generally Effective,
                      but More Aggressive Actions to Address Misuse Are Needed




                                             Background

The Travel and Transportation Reform Act of 19981 and Federal Travel Regulations2 mandate
the use of a Government-issued travel charge card (hereafter referred to as a travel card), except
where specifically exempted,3 and stipulate that the travel card shall be used by all U.S.
Government personnel to pay for official Government travel and travel-related expenses.4 The
Travel and Transportation Reform Act of 1998 also states that personnel who misuse or abuse5
the travel card may be subject to administrative or disciplinary actions up to and including
removal from Federal service. In order to further clarify the requirements of the Act and to
provide Internal Revenue Service (IRS) employees with specific guidance, the IRS developed
the Travel Card Program Handbook6 and the Chief Financial Officer issued a Policy Statement7
to implement mandatory use of the travel card. The IRS also developed and issued the IRS
Manager’s Guide to Penalty Determinations8 that provides managers and business organizations
with guidelines for identifying, reporting, and resolving inappropriate use of a travel card.
The Department of the Treasury selected Citibank to provide travel card services for all of its
bureaus and offices. The IRS has established two types of travel card accounts: 1) individually
billed accounts (IBA) and 2) centrally billed accounts. Individually billed cards are issued to
employees who perform travel at least twice a year to pay for official travel and travel-related
expenses. The Government reimburses employees for authorized expenses and the employee is


1
  Pub. L. No. 105-264.
2
  The Federal Travel Regulations, 41 CFR chapter 301-51.112, issued by the Administrator of General Services,
governs travel and transportation allowances and relocation allowances for Federal civilian employees.
3
  The Internal Revenue Manual (IRM), 1.32.1.7.4 (2) (Feb. 2, 2012), states that official travel expenses exempted
from mandatory travel card use are: a) vendors who do not accept the travel card; b) laundry/dry cleaning;
c) parking; d) local transportation; e) taxis and tips; f) income tax reimbursement allowances related to long-term
taxable travel; g) real estate transactions; h) relocation income tax allowances; i) meals; and j) other expenses that
may be exempted but require written approval.
4
  IRS Delegation Order 1-49 grants authority to the Associate Director, Credit Card Services, to grant exemptions to
frequent non-international travelers (two or more trips per year) if they believe they would incur a hardship if
required to obtain and use the travel card. The IRS Large Business and International Division approve exemption
requests for international travelers.
5
  Examples of misuse/abuse may include: personal use; use of the travel card for someone other than the specific
cardholder; use while not on official Government travel; use in the cardholder’s local commuting area, if not in
official Government travel status under a travel order/authorization; purchases from an unauthorized merchant;
failure to pay undisputed amounts on time; failure to pay accounts with sufficient funds; and failure to properly use
Government voucher reimbursements to repay travel expenses.
6
  IRM 1.32.4 (Oct. 17, 2012).
7
  CFO-IFM-03-07, effective April 15, 2003.
8
  Doc. 1500 (Rev. 08-2012) for use with IRM 6.751.1 (Nov. 4, 2008).
                                                                                                               Page 1
                            Travel Card Controls Are Generally Effective,
                     but More Aggressive Actions to Address Misuse Are Needed



responsible for making payment to Citibank.9 To receive an individually billed travel card from
Citibank, eligible IRS employees must complete required training and sign an application. By
accepting the travel card, employees agree to use it only for official travel and related expenses
while away from their official duty station for which they will submit a travel voucher for
reimbursement. In Fiscal Year (FY)10 2011, the IRS had approximately 52,000 individually
billed travel card accounts11 and about $121 million in related travel card charges.
Centrally billed accounts are corporate accounts issued to an agency business unit and may be
used only to pay for common carrier transportation when an employee is authorized to perform
official travel but did not receive an IBA (e.g., new employees who have not been issued a travel
card or infrequent travelers). Centrally billed accounts are paid directly by the Government to
Citibank. We did not include centrally billed accounts as part of this review. This review was
focused on the controls over IBA transactions incurred by employees for the purpose of
identifying potentially fraudulent or abusive uses of an IRS travel card.
Office of Management and Budget Circular A-123, Appendix B, Improving the Management of
Government Charge Card Programs, hereafter referred to as the Circular, prescribes policies and
procedures to agencies regarding how to maintain internal controls that reduce the risk of fraud,
waste, and error in Government charge card programs. Appendix B, Chapter 6, of the Circular
defines charge card misuse12 and requires all agencies to perform the following:
       Prior to issuing a travel card, all agencies must perform a credit worthiness review on
        new IBA travel card applicants.
       Applicant must have a credit score of 660 or higher to receive a standard travel card;
        otherwise, travel card privileges13 should be restricted.
       New travel card applicants must complete the required training prior to being issued a
        travel card.
       Agencies must periodically evaluate the effectiveness of the controls put in place to
        mitigate the risks of payment delinquencies and charge card misuse.




9
  Cardholders are offered the split disbursement option which allows a portion of their travel reimbursement from
the IRS to be sent directly to Citibank to pay for travel-related expenses.
10
   A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
11
   As of September 30, 2009, the IRS had 51,301 IBA travel cardholders, and as of September 30, 2011, the IRS had
51,974 IBA travel cardholders.
12
   Charge card misuse is use of a Federal charge card for other than the official Government purpose(s) for which it
is intended.
13
   A restricted travel card does not allow cash withdrawals from automated teller machines and limits certain
miscellaneous expenses.
                                                                                                             Page 2
                             Travel Card Controls Are Generally Effective,
                      but More Aggressive Actions to Address Misuse Are Needed



        Develop and impose disciplinary actions deemed appropriate by the agency in cases of
         charge card misuse.
        Initiate administrative and/or disciplinary actions for each occurrence of charge card
         misuse.
        Impose disciplinary action for charge card infractions, including removal for serious or
         repeated infractions. Appropriate agency personnel may impose, but are not limited to,
         the following administrative and/or disciplinary actions for negligence, misuse, abuse, or
         fraud: verbally counsel and issue a letter of counseling/reprimand to the employee;
         deactivate, suspend, or cancel employee travel card accounts; and impose additional
         disciplinary actions deemed appropriate by the agency. Circumstances surrounding each
         case should be considered when determining the proper type of corrective,
         disciplinary/adverse action, if any, to be imposed.
Delinquency is the result of an employee’s failure to pay the charges incurred on his or her
individually billed travel card in accordance with the terms and conditions of the issuing bank’s
cardholder account agreement. The travel card contractor will suspend an account once an
undisputed transaction remains unpaid for 61 calendar days or more from the billing/closing date
on the statement in which the unpaid charges first appeared. The contractor will cancel an
account once undisputed transactions remain unpaid for 120 calendar days or more from the
closing date on the statement in which the unpaid charges first appeared.14 An account may also
be canceled if it has been suspended twice during the preceding 12 months and becomes past due
again. The Travel and Transportation Reform Act of 1998 authorizes Federal agencies to offset
up to 15 percent of an employee’s disposable pay at the request of the travel card contractor to
collect delinquent balances.15
In addition to Office of Management and Budget guidelines, Federal law states that the use of a
scheme or artifice either to defraud a Federally chartered or insured financial institution or to
obtain any of the monies, funds, credits, assets, securities, or other property owned by, or under
the control of, such an institution may be prosecuted as criminal violations. In addition, whoever
knowingly executes, or attempts to execute, a scheme or artifice shall be fined not more than
$1 million or imprisoned not more than 30 years, or both.16 Failure to timely pay travel card
charges may also constitute a violation of the Standards of Ethical Conduct for Employees of the
Executive Branch (5 CFR 2635).
IRS employees are required to have background investigations to determine their suitability for
employment. Employees must undergo investigative processing commensurate with the

14
   A charge-off is the removal of an account from a credit card issuer’s books as an asset after it has been delinquent
for a period of time, usually 180 calendar days. When an account is charged off, the credit card issuer absorbs the
outstanding balance as a loss.
15
   The IRS’s travel card delinquency rates are well below Governmentwide averages. See Appendix IV for details.
16
   18 U.S.C. §1344 (Oct. 12, 1984).
                                                                                                                Page 3
                            Travel Card Controls Are Generally Effective,
                     but More Aggressive Actions to Address Misuse Are Needed



risk-level designation associated with the work to be performed. Human Capital Office
staff review the work to be performed and use the Office of Management and Budget Position
Designation Automated Tool to assign risk designations (low, moderate, or high) to positions of
employees in accordance with the related criteria requirements. The position risk levels are
based upon potential impact on and/or damage to the efficiency of the IRS’s operations.
Typically, IRS employees have their background check and clearance reevaluated every
five years.
The IRS assigned the Office of the Chief Financial Officer the responsibility of travel card
program policy development. The IRS Credit Card Services (CCS) Branch (part of Employee
Support Services in the Agency-Wide Shared Services organization) has administrative oversight
and program responsibilities for the IRS charge card programs. These responsibilities include
acting as the IRS liaison with Citibank and the Department of the Treasury for all aspects of its
charge card programs, monitoring account activity, updating and testing internal controls and
procedures, and providing training. In addition, the CCS Branch is responsible for initiating
appropriate action to notify Labor and Employee Relations (hereafter referred to as Labor
Relations) of delinquent accounts and inappropriate travel card use.17 IRS managers are
responsible for consulting with their servicing Labor Relations staff before meeting with a travel
cardholder who is delinquent in payment of a travel card or who may have inappropriately used a
travel card. Disciplinary actions for unauthorized use are listed in the IRM and range from
written reprimands to suspension without pay and removal from Federal service. Each business
unit determines the level of supervisory authority required for taking disciplinary or adverse
actions in accordance with the IRS disciplinary action policies included in the IRS Manager’s
Guide to Penalty Determinations.
This review was performed at the CCS Branch of the IRS Agency-Wide Shared Services
organization in Nashville, Tennessee, during the period November 2011 through
November 2012. This review focused on individually billed travel card transactions and
management controls in place during FYs 2010 and 2011. The review assessed the design of
travel card program controls, the effectiveness of the implementation of six key controls, and the
adequacy of disciplinary actions by the IRS in response to identified travel card misuse. We did
not review controls over travel card delinquencies or rebate calculations as part of this audit. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.

17
  Labor and Employee Relations is a function in the Human Capital Office within the Workforce Relations
Division.
                                                                                                          Page 4
                         Travel Card Controls Are Generally Effective,
                  but More Aggressive Actions to Address Misuse Are Needed




                                 Results of Review

Controls Are Designed Effectively but Do Not Include a Control to
Identify Personal Use of Travel Cards While Employees Are on Official
Travel
The CCS Branch established preventive and detective reviews to manage, monitor, and verify
that cardholders are adhering to agency travel card policies and procedures when using their
individually billed travel cards. These controls are, in general, designed to verify that charges
are made during official travel, to verify that cardholders’ business and personal data are current
on Citibank reports, and to increase timely payment of individually billed travel card accounts.
Timely payment is important because late payment or nonpayment of travel card account
balances due by IRS employees triggers contractual provisions allowing the bank to reduce
rebates, causing the IRS to forfeit revenue in lost rebates. However, the focus of the CCS
Branch’s oversight reviews is to detect travel card transactions made outside of official travel.
Current oversight reviews are not designed to detect inappropriate personal use of the cards
while employees are on official travel. The lack of controls designed to detect personal use
while employees are on official travel could result in undetected misuse of the travel cards.

Generally, controls over travel card accounts and transactions were effectively
designed
IRS travel card controls are separated into two main categories, preventive and detective.
Preventive controls are designed to prevent misuse before it occurs and to verify that travel cards
are functioning as intended. Detective controls are designed to monitor transactions to detect
noncompliance with travel card policies and regulations.
Major preventive controls include requiring new applicants to complete travel card training and
undergo a credit check, establishing travel card credit limits, assigning authorized merchant
codes, and limiting cash withdrawal amounts from automated teller machines (ATMs). IRS
managers also indicated that cardholders are required to complete refresher training every
two years, approximately three months prior to the expiration date of their travel card. The
standard credit limit for most cardholders is $5,000, and higher limits are provided for special
circumstances, such as an extended period of travel or relocation. A restricted travel card that
does not allow cash withdrawals and limits certain miscellaneous expenses is initiated for
cardholders where the credit rating did not meet the required score. By setting appropriate credit
limits on travel cards, the CCS Branch effectively reduces the amount of additional credit a
cardholder has beyond what is required for official travel, which can reduce the risk of abuse.
The CCS Branch also identifies and assigns to each cardholder the necessary merchant codes that
                                                                                             Page 5
                               Travel Card Controls Are Generally Effective,
                        but More Aggressive Actions to Address Misuse Are Needed



a traveler may need during official travel, such as lodging, restaurants, airlines, and car rentals,
and blocks codes for purchases at inappropriate merchants such as liquor stores, vehicle repair
shops, and jewelry stores. Restricting purchases to merchants that are associated with normal
travel expenses helps to prevent personal use for expenses not related to official travel. The CCS
Branch also limits cash withdrawals by a cardholder to $110 per day and $1,100 per billing
cycle.18 By limiting the amount of cash available to a cardholder, the CCS Branch can
effectively reduce the likelihood that cash could be used for expenses not related to official
travel.
During FYs 2010 and 2011, the CCS Branch used a number of detective controls designed to
identify travel card misuse. The CCS Branch reviewed specific transaction types and date ranges
to identify personal use of travel cards. For example, the CCS Branch performed a review of
ATM transactions on a quarterly basis from October 2009 through March 2011 and on a monthly
basis from April 2011 through the end of FY 2011. The quarterly reviews involved matching a
random sample of the travel card ATM transactions to the travel voucher data to determine if the
cardholder was on official travel. In addition, in February and October 2010, the CCS Branch
reviewed a random sample of all travel card transactions in those months to determine if
cardholders were on official travel. The CCS Branch also reviewed all transactions that occurred
near the Christmas and New Year holidays in FYs 2010 and 2011 to determine if cardholder
transactions occurred outside the period in which the employee was on official travel. The
combination of preventive and detective controls in place appeared to be designed effectively for
preventing and identifying personal use of travel cards by employees while not on official travel.

Travel card controls are not specifically designed to detect misuse while on
official travel
While preventive controls such as merchant code restrictions and credit limits may reduce the
risk of personal use, the CCS Branch does not examine transactions that were incurred during
official travel to identify those that appear to be inappropriate or for personal use. Personal use
of a travel card, regardless of whether the cardholder is on official travel, is misuse and should be
identified and timely responded to by the IRS.
During FYs 2010 and 2011, the CCS Branch detective controls focused primarily on verifying
that transactions occurred during or near the official travel dates of cardholders. These detective
control reviews were performed periodically and on a sample basis. The CCS Branch explained
that, prior to FY 2012, they performed the transaction reviews based on a statistical random
sample due to resource limitations and the volume of monthly card transactions extracted from
Citibank’s online system. However, the CCS Branch indicated that as of FY 2012, they have
improved the travel card detective controls by implementing a 100 percent match of all travel
card transactions to travel voucher and authorization data. If this detective control is effectively


18
     The billing cycle is usually between 25 to 30 calendar days.
                                                                                              Page 6
                            Travel Card Controls Are Generally Effective,
                     but More Aggressive Actions to Address Misuse Are Needed



implemented, it should identify transactions that did not reconcile to a voucher. While this
improvement may result in better coverage of transactions, the detective controls still primarily
focus on identifying transactions that occurred while a cardholder was not in an official travel
status, thus leaving the IRS vulnerable to inappropriate or personal use of travel cards by
employees who are on official travel. Effective controls must include reviews to detect personal
use of travel cards while employees are on official travel.

Recommendation
Recommendation 1: The Chief, Agency-Wide Shared Services, should develop and
implement detective travel card controls designed to identify inappropriate or personal use travel
card transactions that occur when cardholders are on official travel.
        Management’s Response: The IRS agreed with the recommendation and will
        develop and implement a process to identify potential inappropriate or personal use of the
        travel card while the employee is in official travel status.

Implementation of Travel Card Controls Detected Misuse, but
Improvements Can Be Made
We found that the IRS was generally effective in implementing travel card controls. However,
in some instances controls were not implemented effectively, which increased the risk for misuse
and resulted in some travel card misuse going undetected. In order to determine the
effectiveness of the IRS’s implementation of travel card controls during FYs 2010 and 2011, we
selected six controls to review and reperform.19 Figure 1 provides details on each of the
six controls reviewed.




19
  For the purposes of this report, we reperformed the IRS oversight reviews and compared our results to the IRS’s
results.
                                                                                                            Page 7
                             Travel Card Controls Are Generally Effective,
                      but More Aggressive Actions to Address Misuse Are Needed



                  Figure 1: List of Controls Reviewed and Reperformed
                 by the Treasury Inspector General for Tax Administration

          Control                                        Purpose of Control
      ATM
                           Preventive control designed to limit employees from exceeding a daily
      Withdrawal
                           cash withdrawal of $110 per day and $1,100 per billing cycle.20  
      Limits
      Cancellation of
                           Preventive control designed to verify that travel card accounts are closed
      Accounts for
                           for separating employees and to reduce the credit limit of travel cards to
      Separated
                           $5 for employees going into a temporary nonpay status.21
      Employees
      Non-Sufficient
      Funds (NSF)          Detective control designed to identify instances of NSF checks sent by
      Check                employees to Citibank for payment of their travel card statement.
      Identification
      Identification of    Detective control designed to determine whether employees are
      Large Personal       inappropriately using the travel card and then making payments from their
      Payments             personal funds of over $1,000 to Citibank.  
      Holiday              Detective control designed to identify personal use of the travel cards
      Transaction          while employees are not on official travel during the holiday periods in
      Review               FYs 2010 and 2011.22
      Transaction          Detective control designed to identify personal use of the travel card while
      Sample Review        employees are not on official travel on a sample basis for one month in
                           FY 2010 and one month in FY 2011.23 
     Source: Analysis of FYs 2010 and 2011 controls implemented by the IRS.

ATM withdrawal limits
We found that the IRS effectively limited ATM withdrawals by cardholders in general, but also
found a few instances where controls were not effective due to the need for CCS Branch
personnel to manually update account profiles or due to system failures. The ATM control limits
employees to a cash withdrawal of $110 per day and $1,100 per billing cycle. During FYs 2010
and 2011, IRS travel cardholders made over 50,000 ATM withdrawals that complied with these


20
   Citibank’s billing cycle begins on the fourth day of the month and ends on the third day of the following month.
21
   This includes seasonal employees in nonpay status, employees in Leave Without Pay status for more than
60 calendar days, and employees in Leave Without Pay status for less than 61calendar days.
22
   The IRS reviewed transactions occurring on Christmas Eve, Christmas Day, New Year’s Eve, and New Year’s
Day.
23
   February and October 2010 were the two months selected.
                                                                                                              Page 8
                             Travel Card Controls Are Generally Effective,
                      but More Aggressive Actions to Address Misuse Are Needed



limits. However, we identified 133 instances, or less than 1 percent,24 of cash advances for more
than $110 per day and 92 instances,25 or less than 1 percent, of ATM cash advances for more
than $1,100 per cycle. For the advances that exceeded daily limits, we found that the CCS
Branch had failed to manually update account profiles to limit daily ATM withdrawals when
account credit limits had increased. Daily ATM limits are generally set as a percentage of the
total credit limit. For example, a card with a $5,000 credit limit would have a daily ATM limit
of 2.2 percent, or $110. However, if the credit limit is later increased to $10,000 due to frequent
travel, the daily limit would then increase to $220 dollars per day, or 2.2 percent, unless the
ATM limit percentage was manually adjusted. The need for manual adjustments resulted in a
breakdown of this control. For the advances that exceeded monthly limits, we found that if
employees made payments to their account in the middle of a billing cycle, the monthly ATM
limit would then be reset. When we brought this issue to the attention of the CCS Branch, they
took immediate action to begin manually adding the restriction of $1,100 in monthly ATM
withdrawals to each employee’s account profile regardless of when payments are made within
the billing cycle.

Cancellation of accounts for separated employees
We found that the IRS effectively closed travel card accounts for cardholders separating from the
IRS and reduced the limits for cardholders going into a temporary nonpay status. For our review
of the control over closing accounts for separated employees, we identified 2,246 employees 26
and found that the IRS effectively closed or reduced the limits on the travel cards for 2,242, or
99 percent, of the employees who separated or who went into a temporary nonpay status.27 The
IRS was able to effectively close the travel card account or reduce the travel card credit limit to
$5 because it effectively performed the control on a daily basis. Timely cancelling the travel
card for separating employees or reducing the credit limit from $5,000 to $5 for employees who
go into a temporary nonpay status reduces the risk for misuse because employees do not have the
ability to misuse the travel card.

NSF check identification
The IRS was moderately effective in identifying cases where cardholders wrote NSF checks
against balances owed to the travel card vendor. Our analysis of the NSF check control review
for FY 2011 found that the IRS identified 110 (99 percent) of 111 of the NSF checks that we
identified during our review. However, during the FY 2010 NSF check control review, we found
that the IRS did not identify 77 (36 percent) of 214 NSF checks due to errors in extraction. This

24
   The population of cash advances was 52,360 for FYs 2010 and 2011.
25
   Of the 92 instances, 87 had no restriction in place and the remaining five had their credit limit increased without a
corresponding decrease in the cash advance percent.
26
   We selected two pay periods to review, December 20–31, 2009, and December 19–31, 2010.
27
   The remaining four accounts were not closed in a timely manner; however, no additional transactions occurred
after the employees’ separation.
                                                                                                                 Page 9
                             Travel Card Controls Are Generally Effective,
                      but More Aggressive Actions to Address Misuse Are Needed



occurred because the IRS did not select the correct NSF code in the Citibank transaction data.
The errors caused misuse to go undetected and resulted in cardholders who wrote NSF checks
not being referred to Labor Relations.

Identification of large personal payments
We found that the IRS was somewhat effective in identifying instances of large personal
payments made by cardholders. During one billing cycle in FY 2011, the IRS reviewed
payments greater than $1,000 on travel card balances made by cardholders from their personal
bank accounts. The review was performed to determine if the personal payments were necessary
due to personal use of the travel card. In most instances, personal payments are not necessary
because travel card accounts receive payments for transportation and lodging expenses directly
from the IRS when an employee files a travel voucher. We found that there were 102 payments
of more than $1,000 made by cardholders during the period reviewed, but the IRS failed to
identify and investigate 45 of the payments. The IRS failed to identify the payments because the
process used for extracting the payments did not capture personal payments made through the
vendor’s website. As a result, the IRS did not have the opportunity to review the purchases
associated with those payments to determine if personal use of the travel card occurred.

Holiday transaction review
The IRS was only moderately effective in reviewing travel card transactions that occurred during
the holiday time period for FYs 2010 and 2011. The holiday transaction review is designed to
detect transactions, including ATM and fuel purchases, which were made outside of official
travel dates. While the IRS correctly identified most of the transactions occurring during or near
the Christmas and New Year holidays, the IRS failed to identify 114 transactions totaling
$30,844.28 This occurred because the IRS extracted data off a Citibank report that uses the
“posting date” instead of the “transaction date,” which prevented the IRS from extracting all of
the transactions for the review. Because transactions do not post on weekends, Christmas Day,
or New Year’s Day, the IRS failed to identify and review a significant number of transactions
that occurred on the dates they were attempting to review.
In addition, the IRS also failed to refer a small number of transactions to Labor Relations for
disciplinary action. Our analysis found that the IRS travel card policy lacked specific guidance
related to fuel purchases and ATM withdrawals. During our review, we found that 13 fuel
purchases and three ATM withdrawals should have been referred to Labor Relations because the
charges did not fall during or near official travel dates. For example, we found an employee who
purchased fuel on December 24, 2009, and their closest dates of official travel ended six calendar
days before, on December 18, 2009. In addition, we found another employee who had an ATM


28
  In FY 2010, 108 transactions totaling $29,618 were not identified, and in FY 2011, six transactions totaling
$1,226 were not identified.
                                                                                                            Page 10
                         Travel Card Controls Are Generally Effective,
                  but More Aggressive Actions to Address Misuse Are Needed



withdrawal on December 31, 2009, but did not go on official travel until January 4, 2010.
Current IRS policies do not specifically address the advance purchase of fuel or withdrawal of
cash, other than to say that travel cards are to be used only while on official travel. However, an
IRS “Frequently Asked Questions” guide did state that an employee can use the travel card to
withdraw cash one day prior to the first day of official travel. CCS Branch personnel agreed that
there is a lack of understanding by employees as to when the travel card can be used to purchase
fuel, and that they did not have an official policy on the matter. The CCS Branch also stated that
a time period of five calendar days prior to official travel is a reasonable period to obtain an
advance from an ATM, but agreed that there was no official policy stating that time period was
acceptable. As a result of the lack of official policy for fuel and ATM use, we found that the
controls did not effectively identify this potential misuse on a consistent basis.

Transaction sample review
The IRS was also generally effective in reviewing a sample of transactions that occurred during
two months in FYs 2010 and 2011. The IRS performed the review by sampling transactions and
comparing them to travel voucher data in order to determine if purchases occurred during, or
were related to, official travel. Of the 783 transactions reviewed by the IRS as part of this
control, we found 19 transactions that were not handled appropriately. Of these transactions,
nine were related to fuel and ATM purchases similar to the problems noted above in the holiday
transaction review. The majority of the other exceptions were related to human error in the
identification of potential misuse. In these instances, the CCS Branch agreed that the
transactions should have been referred to Labor Relations.

Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 2: Work with the Chief Financial Officer to revise current policies and
procedures to include steps to verify that daily ATM limits are maintained whenever credit limits
are adjusted.
       Management’s Response: The IRS agreed with this recommendation and stated that
       it has already developed and implemented an internal procedure to ensure that the ATM
       percentage is changed appropriately at the same time the card limit amount is changed,
       effective March 5, 2013. The IRS also stated that the procedure includes a weekly
       review of travel card controls in place to ensure that the ATM percentage is appropriate.
Recommendation 3: Refer to Labor Relations any instances of travel card misuse identified
by this audit (e.g., NSF checks written) that were not previously referred due to control failures.
       Management’s Response: The IRS agreed with this recommendation and will refer
       to Labor Relations the travel card misuse cases we identified that were not previously
       referred provided that the subjects of the misuse remain IRS employees.
                                                                                             Page 11
                             Travel Card Controls Are Generally Effective,
                      but More Aggressive Actions to Address Misuse Are Needed



Recommendation 4: Review current detective control processes over holiday transaction
reviews to determine whether current data extraction methods identify all transactions during the
target time period and update the related procedures accordingly to reflect any control
enhancement needs identified.
         Management’s Response: The IRS agreed with this recommendation and stated that
         it has already incorporated the review of holiday transactions into the 100 percent Travel
         Card Transaction Match process effective January 2012. The date of report extraction
         has been corrected and identifies all transactions posted during the review period.
Recommendation 5: Work with the Chief Financial Officer to develop policies that clearly
state when employees are authorized to make ATM withdrawals and that provide a specific
period in advance of or immediately following official travel dates when withdrawals are
permitted.
         Management’s Response: The IRS agreed with this recommendation. The Chief,
         Agency-Wide Shared Services, will collaborate with the Chief Financial Officer to
         develop a travel card use policy that includes the time period when employees are
         authorized to withdraw cash from an ATM.
Recommendation 6: Work with the Chief Financial Officer to develop policies that clearly
state when employees are authorized to purchase fuel with their travel card.
         Management’s Response: The IRS agreed with this recommendation. The Chief,
         Agency-Wide Shared Services, will collaborate with the Chief Financial Officer to
         develop a travel card use policy that includes the time period when employees are
         authorized to purchase fuel with their travel card.

Disciplinary Actions for Travel Card Misuse Were Often Lenient and
Did Not Result in a Reevaluation of Background Clearances
The vast majority of cardholders used their travel cards in an appropriate manner and paid their
bills on time, which was evidenced by low IRS travel card delinquency rates.29 However, the
CCS Branch identified over 1,000 cases of travel card misuse during FYs 2010 and 2011. While
the CCS Branch correctly referred misuse cases to Labor Relations, disciplinary actions against
the employees were typically less severe than those recommended by the IRS’s penalty
guidelines in approximately half of the 30 cases30 reviewed. In addition, the IRS lacked standard
policies for referring employees who misused their travel cards to security personnel to

29
  See Appendix IV for details on the IRS’s delinquency rates for FYs 2010 and 2011.
30
  The 30 cases were judgmentally selected and included 10 cases of travel card misuse, 10 cases of cardholders
writing NSF checks, and 10 cases of cardholders with delinquent accounts, suspended accounts, or accounts placed
into salary offset. A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to
the population of all travel card misuse cases referred by the CCS Branch to Labor Relations.
                                                                                                             Page 12
                              Travel Card Controls Are Generally Effective,
                       but More Aggressive Actions to Address Misuse Are Needed



determine if background checks, security clearances, and suitability for employment
determinations required reevaluation. As a result, employees who wrote NSF checks or had
suspended and charged-off accounts received little or no disciplinary action in response to their
misuse and did not have their background clearances reevaluated for suitability for employment.
The IRS’s penalty guide provides a range of disciplinary actions that can be applied for each
offense. On a case-by-case basis, there may be a level of variation in the disciplinary actions
administered, depending on other aggravating or mitigating factors (e.g., past work performance,
prior disciplinary record, or whether the misconduct is a first offense). However, we determined
that an overly lenient approach was taken in approximately half of the 30 cases we reviewed.
The lack of aggressive steps to address travel card misuse and the lack of a subsequent
reevaluation of employee background checks and clearances reduces the overall effectiveness of
controls over the travel card program and provides a reduced deterrent factor for travel card
misuse. In addition, employees with significant financial issues may present a security risk to
the IRS. Of particular concern is the fact that the IRS asks taxpayers to voluntarily pay taxes
owed in a timely manner and yet was more tolerant when its employees became delinquent and
defaulted on outstanding payments, violated the terms of the Citibank contract, abused a
Government-provided resource (travel funding), and compromised the integrity of the IRS.

Disciplinary actions in response to misuse of travel cards were not consistently
within penalty guidelines
Sixteen of the 30 referrals of travel card misuse we reviewed showed that disciplinary actions by
IRS managers did not fall within suggested guidelines listed in the IRS Managers Guide to
Penalty Determinations. In FYs 2010 and 2011, CCS Branch personnel referred over 1,000
cases of travel card misuse to Labor Relations personnel for disciplinary action. Upon receiving
a case from the CCS Branch, Labor Relations personnel review the referral to determine the facts
of a case and whether there has been a prior disciplinary action for the employee. They provide
the responsible IRS manager with this information along with the prescribed disciplinary range
as noted in the penalty guide and appropriate information from a review of case law and similar
cases. The manager then has the opportunity to discuss all of this information with Labor
Relations. Labor Relations personnel note that each case is evaluated on an individual basis, and
case-specific circumstances will determine what disciplinary action is appropriate. The IRM31
states that it is the manager’s responsibility to determine if, and what type of, corrective
discipline is warranted. Managers are directed to consult with Labor Relations personnel for
advice. In addition, the IRM states that progressive levels of discipline should be used in cases
of repeated abuse to help correct employee behavior. Figure 2 below shows the progressive
levels of disciplinary action recommended for travel card misuse.




31
     IRM 6.751.1 (Nov. 4, 2008).
                                                                                          Page 13
                          Travel Card Controls Are Generally Effective,
                   but More Aggressive Actions to Address Misuse Are Needed



                     Figure 2: Suggested Penalties for Travel Card Misuse

      Type of Misuse            First Offense           Second Offense      Third Offense
    Making Unauthorized      Written Reprimand to        Six- to 14-Day   15-Day Suspension
    Purchases                Five-Day Suspension         Suspension       to Removal
    Failure to Pay Timely    Written Reprimand to        Six- to 14-Day   15-Day Suspension
    All Charges              Five-Day Suspension         Suspension       to Removal
   Source: The IRS Manager’s Guide to Penalty Determinations.

The guidelines ultimately give managers the flexibility to deviate from suggested disciplinary
actions depending on the facts and circumstances of each case. As a result, we found that 16 of
the 30 cases reviewed had disciplinary actions imposed on employees that were much more
lenient than suggested in the IRS Manager’s Guide to Penalty Determinations.
The 30 cases we reviewed included instances where a cardholder wrote three or more NSF
checks, where cardholder accounts became delinquent and suspended, where accounts were
placed into salary offset, and where accounts had single and multiple personal use transactions.
Cardholders received disciplinary actions that were not noted in their permanent personnel files,
and others repeatedly abused their travel cards and received only a minimal level of discipline
from managers. For example, in one case, a cardholder wrote seven NSF checks within
three months. In response, the IRS manager proposed a one-day suspension but offered the
employee the option of donating eight hours of leave and attending two credit counseling classes
as the disciplinary action. Neither of these responses was consistent with the recommended
discipline of a minimum 15-day suspension. In another case, a cardholder’s initial abuse of the
travel card was only responded to with counseling and, subsequently, the same cardholder wrote
an NSF check against the travel card account and continued to misuse the travel card. As a result
of the lenient disciplinary practices by IRS managers, cardholders were allowed to misuse their
travel cards without serious consequences in some cases and thus may not have been deterred
from future misuse. Figure 3 provides examples from among the 30 cases we reviewed where
travel card misuse was responded to with disciplinary actions less severe than the
recommendations in the IRS’s own guidelines.




                                                                                          Page 14
                            Travel Card Controls Are Generally Effective,
                     but More Aggressive Actions to Address Misuse Are Needed



                         Figure 3: Examples of Travel Card Misuse,
                  Recommended Penalties, and Actions Taken by the IRS

     Travel Card Misuse
 (Employee Grade and Position)             Recommended Penalty                Actions Taken by the IRS
Multiple Offenses – Seven NSF checks
                                                                         Alternative discipline of donation of
written against travel card account in    15-Day Suspension to
                                                                         eight hours leave and attendance at
FY 2011 (General Schedule-9 Tax           Removal
                                                                         two credit counseling classes.
Compliance Officer).
Third Offense – Personal use of the
travel card in FY 2010, delinquent and
suspended travel card account in                                         Suspension of less than 14 business days
                                          15-Day Suspension to
FY 2010, additional personal use in                                      for the personal use and delinquency in
                                          Removal
FY 2011, and additional delinquency in                                   FY 2011.
FY 2011 (General Schedule-13 Lead
Information Technology Specialist).
Multiple Offenses – Account
                                                                         Written reprimand in response to
delinquency in FY 2005, delinquency in    15-Day Suspension to
                                                                         two NSF checks and an account
FY 2008, NSF checks in FY 2011            Removal
                                                                         delinquency.
(General Schedule-14 Program Analyst).
Second Offense – Delinquency in
                                                                         Written counseling in response to the
FY 2008 and NSF check in FY 2010
                                          Six- to 14-Day Suspension      FY 2010 delinquency and the NSF
(General Schedule-13 Financial Program
                                                                         check.
Consultant).
First Offense – Single instance of                                       Letter closing the issue without action.
                                          Written Reprimand to
personal use in FY 2010 (General                                         Letter not kept in employee personnel
                                          Five-Day Suspension
Schedule-13 Internal Revenue Agent).                                     file.
Source: Our analysis of CCS Branch’s misuse referrals and the IRS’s subsequent disciplinary actions.

Cardholders who misused their travel cards did not have background checks and
national security clearances reevaluated
Of the over 1,000 referrals made during FYs 2010 and 2011 by the CCS Branch to Labor
Relations personnel for travel card misuse, at least 785 cardholders had their accounts suspended
or placed into the salary offset program due to significantly past due balances and NSF check
payments to Citibank or had their accounts charged off. Examples of some of the more senior
positions occupied by these employees include:
       Executive – Executive Schedule-00.
       General Attorney – General Schedule-15.
       Contract Specialist – General Schedule-14.
       Internal Revenue Agent – General Schedule-13.
       Criminal Investigator – General Schedule-13.

                                                                                                          Page 15
                            Travel Card Controls Are Generally Effective,
                     but More Aggressive Actions to Address Misuse Are Needed



The IRS stated that it does not have a standard policy or process for either the CCS Branch or
Labor Relations personnel to notify the IRS’s personnel security officials when these significant
personal financial problems occur. Instead, the financial issues would be identified during
scheduled periodic reevaluations of background checks and security clearances that occur every
five years. As a result, we identified numerous instances where cardholders misused their cards
and demonstrated the existence of significant personal financial problems yet retained their
security clearances and were typically still employed by the IRS as of September 2012.
Employees in positions of responsibility who have accrued considerable debts or have other
financial issues that may indicate the presence of other related problems are at increased risk of
failing suitability standards for their positions. As a result, delays in the reevaluations of
employees’ background checks leave the IRS vulnerable to potential security risks.
We found that 15 cardholders with either secret or top-secret clearances had their travel card
accounts suspended due to their failure to pay outstanding balances. Two other cardholders with
secret and top-secret clearances presented NSF checks to Citibank for payment of their travel
card balance. In addition, 94 cardholders serving in public trust positions requiring moderate and
high-level background checks wrote one or more NSF checks, and 36 had their accounts charged
off due to their failure to pay outstanding balances. For example, a tax compliance officer wrote
seven NSF checks in FY 2011 while occupying a position that required a moderate-risk
background investigation. In another case, an IRS revenue agent had his or her travel card
account charged off in FY 2011 and has not had their moderate-level background check
reevaluated since it was issued in FY 2006. The fact that IRS employees occupy positions of
public trust requiring national security clearances or moderate- to high-risk background checks
while demonstrating the existence of significant personal financial problems is of concern.
When personnel are experiencing financial problems, they inherently present a greater risk to the
IRS, especially when occupying positions that provide them access to sensitive information and
taxpayer data.
We also found that the IRS did not attempt to recoup, through salary offset procedures,
charged-off account balances of former IRS employees who may have been receiving Federal
payments through salaries at other agencies or through retirement benefits. Collection of
charged-off account balances could help deter future abuse and strengthen the control
environment over the IRS travel card program.32




32
  Salary offset procedures are prohibited in cases where a balance was included in a bankruptcy or a settlement
agreement with a collection agency.
                                                                                                           Page 16
                         Travel Card Controls Are Generally Effective,
                  but More Aggressive Actions to Address Misuse Are Needed



Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 7: Work with the Chief Financial Officer and IRS Human Capital Officer
to develop and implement a policy where cardholders with evidence of significant personal
financial problems associated with travel card misuse, including suspended accounts, issuance of
NSF checks, and charged-off accounts, are referred to the IRS Human Capital Officer for a
reevaluation of background investigations, security clearances, and suitability for employment.
       Management’s Response: The IRS agreed with this recommendation. The Chief,
       Agency-Wide Shared Services, will collaborate with the Chief Human Capital Officer
       and with the Chief Financial Officer to develop and implement a policy for
       reevaluation of background investigations, security clearances, and suitability for
       employment for cardholders with evidence of significant personal financial problems
       associated with travel card misuse.
Recommendation 8: Coordinate with the other Federal agencies and the General Services
Administration to collect charged-off account balances from separated employees.
       Management’s Response: The IRS partially agreed with this
       recommendation. The IRS currently utilizes all remedies available to support
       Citibank in the collection of outstanding debt before an employee separates from
       the IRS. However, the IRS stated that it does not have the authority or
       responsibility to collect charged-off credit card account balances from separated
       employees.




                                                                                           Page 17
                              Travel Card Controls Are Generally Effective,
                       but More Aggressive Actions to Address Misuse Are Needed



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to assess the IRS’s controls to identify potentially
fraudulent or abusive use of individually billed Government-issued travel cards. To accomplish
this objective, we:
I.         Determined the account and transaction controls the IRS established to prevent and detect
           travel card misuse.
           A. Reviewed the travel card regulations, policies, and procedures that govern the use of
              the travel card.
           B. Interviewed IRS personnel in the Office of the Chief Financial Officer and the CCS
              Branch, identified relevant audit criteria, and documented the policies, procedures,
              and practices used in regulating the travel card program for IBAs.
           C. Documented how the communication of travel card policies and procedures to the
              appropriate IRS business unit managers and cardholders occurs, including any
              required training or travel card agreements, and what steps are taken to verify
              compliance with such policies.1
           D. Identified selected preventive and detective controls over these processes that may be
              pertinent to the deterrence of travel card fraud or abuse.
           E. Determined the CCS Branch’s roles and responsibilities in identifying and referring
              potentially fraudulent or abusive travel card use to Labor Relations or the Treasury
              Inspector General for Tax Administration Office of Investigations, and determined
              what administrative or disciplinary actions were taken when instances of travel card
              abuse or potential fraud were identified.
II.        Identified, obtained, and performed reliability tests on electronic travel card transaction
           data and electronic data from other sources to use in the independent validation of travel
           card transactions.
           A. Obtained individually billed travel card transactions maintained by Citibank for
              October 1, 2009, through October 31, 2011.
           B. Obtained travel voucher data for all vouchers associated with travel beginning on
              September 1, 2009, through October 31, 2011.


1
    IRM 1.32.4, (Aug. 1, 2007).
                                                                                                Page 18
                           Travel Card Controls Are Generally Effective,
                    but More Aggressive Actions to Address Misuse Are Needed



        C. Obtained Automated Labor and Employee Relations Tracking System2 data for
           October 1, 2009, through October 31, 2011.
        D. Performed data reliability tests on the data by conducting reasonableness checks to
           determine the completeness and accuracy of the data. We determined that the data
           were sufficiently reliable for the purposes of this report.
III.    Determined if selected IRS preventive and detective controls over travel cards were
        working as intended and were effective in deterring travel card fraud or abuse.
        A. Selected six preventive and detective controls to verify that the controls were working
           as intended.
        B. Reperformed selected CCS Branch oversight reviews of travel card usage and
           transactions and compared IRS results to our results.
            1. Reviewed ATM and Manual Cash Disbursements/ATM limits to determine if the
               CCS Branch controls effectively prevented travel cardholders from exceeding
               daily or monthly dollar thresholds for cash advances.
            2. Reviewed separated cardholder accounts to identify if the CCS Branch controls
               effectively closed accounts of separated employees.
            3. Reviewed cardholders with NSF payments to determine if the CCS Branch
               identified cardholders who had incidences of NSF checks for payments to their
               travel card account.
            4. Reviewed large personal payments (more than $1,000) to determine if the CCS
               Branch identified all cases.
            5. Reviewed holiday transactions to determine if the CCS Branch identified all
               holiday transactions and appropriately determined if cardholders were using their
               cards during the holidays while on official travel. The holiday transaction review
               is designed to detect transactions, including ATM and fuel purchases, which were
               made outside of official travel dates.
            6. Reviewed two months of transactions to determine if the CCS Branch identified
               all transactions not associated with a matching travel voucher through their
               sampling process.
        C. Determined and documented potential travel card misuse and abuse:
            1. Documented instances where cardholders wrote NSF checks against their travel
               card balances.

2
  The Automated Labor and Employee Relations Tracking System contains information on employee actions
referred to Labor Relations.
                                                                                                    Page 19
                         Travel Card Controls Are Generally Effective,
                  but More Aggressive Actions to Address Misuse Are Needed



           2. Documented whether cardholders who had their accounts suspended, charged off,
              placed into salary offset or who wrote NSF checks had a security clearance.
           3. When matching two months of transactions to travel vouchers, identified any
              additional transactions that did not match to voucher data that were not noted by
              the CCS Branch because of its use of sampling instead of 100 percent reviews of
              all transactions in the selected months.
       D. Identified weaknesses in the design or implementation of the controls tested and
          identified any additional controls that could be implemented to improve the IRS’s
          prevention and detection processes.
       E. Determined if the IRS’s responses to cases identified and referred by the CCS Branch
          are within the guidelines set forth in the IRS penalty guide.
           1. Within our audit period, identified all cases referred by the CCS Branch to Labor
              Relations for action.
           2. Selected a judgmental sample of 30 cases from the areas of travel card misuse
              (personal use), travel card delinquencies (delinquencies, suspensions, and salary
              offsets), and NSF checks. A judgmental sample was used due to the volume of
              travel card cases referred to Labor Relations and the audit resources available. A
              judgmental sample is a nonstatistical sample, the results of which cannot be used
              to project to the population of all travel card misuse cases referred by the CCS
              Branch to Labor Relations.
           3. Reviewed the actions taken by IRS management and Labor Relations and
              compared them to the IRS penalty guide.
           4. Identified if there are any trends or consistent variances between punishments and
              the penalty guidelines issued by the IRS.
           5. Identified examples, if available, where less severe responses to travel card
              misuse may have contributed to escalated abuse.
           6. Determined the impact of travel card misuse on employee security clearances and
              background checks.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s travel card policies and
procedures that govern the use of the travel card and implementation of the controls to prevent

                                                                                              Page 20
                         Travel Card Controls Are Generally Effective,
                  but More Aggressive Actions to Address Misuse Are Needed



and detect travel card misuse, the controls over disciplinary actions in response to identified
misuse, and the related impact on security clearances and background checks. We evaluated
these controls by: 1) interviewing management and other employees involved in performing
travel card reviews, 2) reperforming selected controls to verify that the controls are working as
intended, 3) analyzing travel card transactions, and 4) reviewing disciplinary actions in response
to identified travel card misuse.




                                                                                           Page 21
                        Travel Card Controls Are Generally Effective,
                 but More Aggressive Actions to Address Misuse Are Needed



                                                                             Appendix II

                 Major Contributors to This Report

Gregory Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Nancy Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell Martin, Acting Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia Mrozowski, Director
John Ledford, Audit Manager
Jonathan Meyer, Audit Manager
Heather Hill, Acting Audit Manager
Ahmed Tobaa, Lead Auditor
Tom Cypert, Senior Auditor
Deanna Lee, Senior Audit Evaluator
Melvin Lindsey, Auditor
Jeffrey Stieritz, Auditor




                                                                                     Page 22
                        Travel Card Controls Are Generally Effective,
                 but More Aggressive Actions to Address Misuse Are Needed



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
IRS Human Capital Officer OS:HC
Director, Employee Support Services OS:A:ESS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Chief Financial Officer OS:CFO
       IRS Chief Human Capital Officer OS:DC




                                                                       Page 23
                           Travel Card Controls Are Generally Effective,
                    but More Aggressive Actions to Address Misuse Are Needed



                                                                                            Appendix IV

               The Internal Revenue Service and
            Governmentwide Travel Card Delinquency
              Rates for Fiscal Years 2010 and 2011




Source: Our analysis of the General Services Administration’s and the CCS Branch’s delinquency data.




                                                                                                       Page 24
            Travel Card Controls Are Generally Effective,
     but More Aggressive Actions to Address Misuse Are Needed



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 25
       Travel Card Controls Are Generally Effective,
but More Aggressive Actions to Address Misuse Are Needed




                                                     Page 26
       Travel Card Controls Are Generally Effective,
but More Aggressive Actions to Address Misuse Are Needed




                                                     Page 27
       Travel Card Controls Are Generally Effective,
but More Aggressive Actions to Address Misuse Are Needed




                                                     Page 28
       Travel Card Controls Are Generally Effective,
but More Aggressive Actions to Address Misuse Are Needed




                                                     Page 29
